               The Controls for Examination Processes for
                Industry Cases With International Transfer
                     Pricing Issues Can Be Improved

                                 September 2004

                       Reference Number: 2004-30-133




This report has cleared the Treasury Inspector General for Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                  September 10, 2004


      MEMORANDUM FOR COMMISSIONER, LARGE AND MID-SIZE BUSINESS
                     DIVISION


      FROM:                         Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

      SUBJECT:                      Final Audit Report - The Controls for Examination Processes for
                                    Industry Cases With International Transfer Pricing Issues Can
                                    Be Improved (Audit # 200330014)


      This report presents the results of our review of international transfer pricing
      documentation. The overall objective of this review was to determine the impact of the
      contemporaneous transfer pricing documentation regulations on Industry Case (IC)1
      transfer pricing examinations.
      In summary, international transfer pricing is a term commonly used to describe pricing
      arrangements for exchanging goods, services, and other property between related
      entities or affiliates of a Multinational Enterprise (MNE) group2 with operations in the
      United States (U.S.) and other countries. The Congress and other stakeholders are
      concerned whether entities with cross-border transactions are reporting and paying the
      proper amount of taxes. There is a broad range of estimates regarding the loss of taxes
      due to transfer pricing noncompliance.3 For example, an Internal Revenue Service
      (IRS) study in 1999 estimated an annual loss of $2.8 billion,4 while an independent




      1
        An IC is one that is not a Coordinated Industry Case (CIC) in the Large and Mid-Size Business Division. CIC
      examinations are generally assigned to a team of examiners due to the size and complexity of the taxpayer’s
      business, whereas an IC examination is usually assigned to a single revenue agent.
      2
        An MNE group is a group of associated companies with business establishments in two or more countries. These
      companies may be any form of business entity including corporations, partnerships, and sole proprietorships.
      3
        Transfer pricing noncompliance occurs when prices are set above or below the “arm’s length” price range for the
      purpose of shifting income to low tax or no tax jurisdictions and expenses to high tax jurisdictions.
      4
        U.S. Department of the Treasury, IRS, Report on the Application and Administration of Section 482 (1999).
                                                          2

study estimated the annual loss at $53 billion.5 If the actual noncompliance is closer to
the $53 billion range, it would be a substantial addition to the $311 billion6 gross tax gap
estimate.7 To ensure related party cross-border transactions are accurately reported,
one of the operating priorities of the IRS Large and Mid-Size Business (LMSB) Division
is to implement appropriate strategies to ensure compliance with the transfer pricing
rules and documentation provision as enacted by the Congress.
As part of a comprehensive transfer pricing strategy coordinated with the Department of
the Treasury Office of Tax Policy, the Commissioner, LMSB Division, issued a Transfer
Pricing Compliance Directive on January 22, 2003. The memorandum directs LMSB
Division executives, managers, and revenue agents to request transfer pricing
documentation from MNE taxpayers at the beginning of an examination so it may be
evaluated by an international examiner and/or economist. This should occur during the
preplanning risk assessment phase of the examination, so a determination can be made
as to whether material transfer pricing issues exist, and should be developed as part of
the examination plan.
Our analysis identified that transfer pricing documentation was requested for only about
35 percent of the IC cases closed between Fiscal Years 1997 and 2002. After issuance
of the Transfer Pricing Compliance Directive, transfer pricing documentation was
requested about 55 percent of the time. However, this still fell short of the Directive’s
requirement to request the documentation in each case.
As an additional concern, we estimate that 470 (56 percent) of 846 returns with potential
transfer pricing issues were not referred to an international examiner for evaluation
because they were improperly surveyed8 by domestic revenue agents and team
managers and were never opened for examination. Likewise, some returns with
potential transfer pricing issues that are opened for examination are also not being
referred for review by international examiners. The established examination procedures
are intended to ensure cases with transfer pricing issues are identified, evaluated, and
examined by specialists; however, these procedures are not always effective. We
estimate that, by improving the controls that ensure returns with potential transfer
pricing issues are referred to international examiners for consideration, Federal
Government revenue could increase by approximately $32.3 million annually in
additional income taxes or reduction in tax attributes,9 provided the IRS has the
additional international examiner resources to examine the returns.


5
  U.S. Trade with the World: An Estimate of 2001 Lost U.S. Federal Income Tax Revenue Due to Over-Invoiced
Imports and Under-Invoiced Exports, by Professors Simon J. Pak, Ph.D. of Penn State University – Great Valley
and John S. Zdanowicz, Ph.D. of Florida International University (October 2002).
6
  IRS Oversight Board FY 2005 Budget/Special Report (March 2004).
7
  Tax gap is defined as the amount of tax that is imposed by law for a given year but is not paid voluntarily and
timely.
8
  A survey is defined as a decision not to examine a return that is made without contacting the taxpayer or inspecting
any records after evaluating the examination potential and determining that an examination of the return will not
result in a material change in the taxpayer’s tax liability.
9
  Tax attributes are carryforwards of net operating losses and tax credits that can be used to reduce future taxes.
                                                           3

To improve the use of transfer pricing documentation and transfer pricing examination
results, we recommended the Commissioner, LMSB Division, reemphasize to all
executives, managers, and revenue agents the requirements in the Transfer Pricing
Compliance Directive. To improve the performance for the requirement to refer the
transfer pricing cases to international examiners, the Commissioner, LMSB Division,
should encourage Territory Managers10 to communicate through team meetings,
memoranda, and operational reviews the importance of making appropriate specialist
referrals and requesting transfer pricing documentation. To better ensure IC cases
classified for transfer pricing issues are not improperly surveyed, the Commissioner,
LMSB Division, should implement an automated control to prevent returns selected
during classification for international examiners from being surveyed without the prior
approval of the International District Program Manager. In the long term, to ensure
referrals are made to international examiners, the Commissioner, LMSB Division,
should have the Specialist Referral System (SRS)11 modified to automatically generate
referrals to international examiners for returns containing the criteria for referral when
the returns are opened for examination.
Management’s Response: The Commissioner, LMSB Division, agreed with three of our
four recommendations. The Commissioner will reemphasize the Directive by issuing a
memorandum suggesting that its requirements be communicated through team
meetings, memoranda, and operational reviews, and agreed to incorporate the
substance of the Directive into the Internal Revenue Manual. The Commissioner also
agreed to issue a memorandum to the field addressing timely specialist referrals and
will continue with efforts to modify the SRS to ensure required referrals to international
examiners are made timely.
The Commissioner did not concur with our recommendation to implement an automated
control that will prevent a return with international features from being improperly
surveyed prior to approval of the International District Program Manager and to detect
this occurrence. The Commissioner believes the preferred approach is to ensure
returns are referred timely and will continue efforts to develop and test either an
automated referral system or a system which will efficiently provide information
regarding returns awaiting referral. Management’s complete response to the draft
report is included as Appendix V.
Office of Audit Comment: We agree with the Commissioner that the preferred approach
is to ensure returns with international features are referred timely. As the report
indicates, the intent of the recommendation is to implement an automated control that
would ensure all required returns are referred to an international examiner within a short
period of time. While we still believe our recommendation is worthwhile, we do not
intend to elevate our disagreement concerning it to the Department of the Treasury for
resolution.


10
   A Territory Manager is a second-level manager who oversees groups in a geographic area. An operational review
is a process used by the Territory Manager to evaluate performance and to identify opportunities for improvement.
11
   The SRS is an automated referral process that allows revenue agents to request the assistance of a field specialist.
                                            4

In responding to our draft report, the Commissioner, LMSB Division, also included
numerous comments regarding our work that we believe need to be clarified. First, the
Commissioner expressed concern about references to the estimates on transfer pricing
noncompliance developed by Doctors Pak and Zdanowicz. Our purpose for using these
figures in the report was to illustrate the range of estimates of transfer pricing
noncompliance in recent studies.
Second, the Commissioner indicated the IRS subsequently conducted an independent
survey of International Territory Managers to determine the rate of request for transfer
pricing documentation and determined it to be higher than the 55 percent described in
our report. We are pleased it appears that examiners are requesting transfer pricing
documentation more consistently, which indicates to us that our review activities had a
positive impact. However, we cannot comment on the reliability of the LMSB Division
survey results because they were provided subsequent to our audit work.
Third, while the Commissioner expressed no specific disagreement with the outcome
measure described in our report, concern was expressed over our assumptions and the
fact that our projection is contingent on the premise that the LMSB Division has the
international examiner resources to examine the additional returns that should be
referred. Specifically, the Commissioner noted that transfer pricing examinations
frequently lead to the dispute resolution processes where significant issues are resolved
at amounts substantially less than those originally proposed. As we indicate in the
report, we took these factors into consideration. Our assumption that additional
international examiner resources may be required was based on the unstated
assumption that current international examiner resources are already fully employed
and therefore unavailable.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Philip Shropshire, Acting Assistant Inspector General for Audit (Small Business and
Corporate Programs), at (215) 516-2341.
                The Controls for Examination Processes for Industry Cases With
                     International Transfer Pricing Issues Can Be Improved




                                                  Table of Contents


Background ............................................................................................... Page 1
Examiner Requests for Transfer Pricing Documentation Increased
After the Compliance Directive, but Opportunities for Improvement
Still Exist.................................................................................................... Page 3
         Recommendation 1: .......................................................................Page 6

Many Income Tax Returns With Potential Transfer Pricing Issues
Never Received Consideration by International Examiners ...................... Page 7
         Recommendations 2 and 3: ...........................................................Page 10
         Recommendation 4: .......................................................................Page 11

Appendix I – Detailed Objective, Scope, and Methodology....................... Page 13
Appendix II – Major Contributors to This Report ....................................... Page 17
Appendix III – Report Distribution List ....................................................... Page 18
Appendix IV – Outcome Measures............................................................ Page 19
Appendix V – Management’s Response to the Draft Report ..................... Page 23
             The Controls for Examination Processes for Industry Cases With
                  International Transfer Pricing Issues Can Be Improved

                                  One of the Internal Revenue Service (IRS) Large and
Background                        Mid-Size Business (LMSB) Division’s top priorities since
                                  its standup in June 2000 has been to build a tax
                                  administration organization to deal effectively with
                                  globalization. The LMSB Division’s Strategy and Program
                                  Plan Fiscal Year (FY) 2004 – 2005 describes this challenge:
                                           As the business world continues to globalize, tax
                                           planning is increasingly focused on worldwide
                                           effective tax rate minimization. As a result,
                                           taxpayers often have an inherent incentive to adopt
                                           structures or arrangements that maximize U.S.
                                           [United States] expenses or shift income abroad.
                                           While many cross-border transactions are clearly
                                           contemplated and addressed under U.S. domestic
                                           law or treaty provisions, others involve emerging
                                           issues that may constitute unacceptable tax
                                           avoidance or evasion.
                                  One of the operating priorities of the LMSB Division is to
                                  implement appropriate strategies to ensure compliance with
                                  the transfer pricing rules and documentation provision as
                                  enacted by the Congress.
                                  International transfer pricing is a term commonly used to
                                  describe pricing arrangements for exchanging goods,
                                  services, and other property between related entities or
                                  affiliates of a Multinational Enterprise (MNE) group1 with
                                  operations in the U.S. and other countries. The Congress
                                  and other stakeholders are concerned whether entities with
                                  cross-border transactions are reporting and paying the
                                  proper amount of taxes. There is a broad range of estimates
                                  regarding the loss of taxes due to transfer pricing
                                  noncompliance.2 For example, an IRS study in 1999
                                  estimated an annual loss of $2.8 billion,3 while an


                                  1
                                    An MNE group is a group of associated companies with business
                                  establishments in two or more countries. These companies may be any
                                  form of business entity including corporations, partnerships, and sole
                                  proprietorships.
                                  2
                                    Transfer pricing noncompliance occurs when prices are set above or
                                  below the “arm’s length” price range for the purpose of shifting income
                                  to low tax or no tax jurisdictions and expenses to high tax jurisdictions.
                                  3
                                    U.S. Department of the Treasury, IRS, Report on the Application and
                                  Administration of Section 482 (1999).
                                                                                                     Page 1
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                     independent academic study estimated the annual loss at
                     $53 billion.4 If the actual noncompliance is closer to the
                     $53 billion range, it would be a substantial addition to the
                     $311 billion5 gross tax gap estimate.6
                     One factor that historically hindered the IRS’ effective
                     administration of Internal Revenue Code (I.R.C.)
                     Section (§) 4827 and international transfer pricing was
                     limited access to the information necessary to establish the
                     proper transfer pricing methodology and transfer prices
                     under the “arm’s length” standard.8 As a result,
                     international transfer pricing has historically been one of the
                     most contentious issues leading to protracted disputes
                     between the IRS and MNE taxpayers.
                     In response, the Congress in 1993 amended
                     I.R.C. § 6662(e)9 to encourage MNE taxpayers to
                     contemporaneously document their transfer pricing
                     methodology and transfer prices when they file their returns
                     and provide that documentation to the IRS within 30 days of
                     a request. In exchange, the MNE taxpayers would not be
                     assessed the substantial valuation or gross valuation
                     penalties if a transfer pricing adjustment resulted from an
                     examination.
                     As part of a comprehensive transfer pricing strategy
                     coordinated with the Department of the Treasury Office of
                     Tax Policy, the Commissioner, LMSB Division, issued a
                     Transfer Pricing Compliance Directive on January 22, 2003.
                     The memorandum directs LMSB Division executives,


                     4
                       U.S. Trade with the World: An Estimate of 2001 Lost U.S. Federal
                     Income Tax Revenue Due to Over-Invoiced Imports and Under-Invoiced
                     Exports, by Professors Simon J. Pak, Ph.D. of Penn State University –
                     Great Valley and John S. Zdanowicz, Ph.D. of Florida International
                     University (October 2002).
                     5
                       IRS Oversight Board FY 2005 Budget/Special Report (March 2004).
                     6
                       Tax gap is defined as the amount of tax that is imposed by law for a
                     given year but is not paid voluntarily and timely.
                     7
                       I.R.C. § 482 (2004).
                     8
                       For additional information on the “arm’s length” standard and current
                     trends in the IRS’ administration of transfer pricing, see our audit report
                     Current Trends in the Administration of International Transfer Pricing
                     by the Internal Revenue Service (Reference Number 2003-30-174,
                     dated September 2003).
                     9
                       I.R.C. § 6662(e)(3)(B) (2004).
                                                                                        Page 2
              The Controls for Examination Processes for Industry Cases With
                   International Transfer Pricing Issues Can Be Improved

                                   managers, and revenue agents to request transfer pricing
                                   documentation from MNE taxpayers at the beginning of an
                                   examination so it may be evaluated by an international
                                   examiner and/or economist. This should occur during the
                                   preplanning risk assessment phase of the examination, so a
                                   determination can be made as to whether material transfer
                                   pricing issues exist, and should be developed as part of the
                                   examination plan.
                                   If contemporaneous documentation is not available or is
                                   provided more than 30 days after the IRS’ request, the
                                   taxpayer may be subject to the substantial valuation penalty
                                   of 20 percent or the gross valuation penalty of 40 percent of
                                   the portion of the tax deficiency arising from transfer
                                   pricing-related adjustments.
                                   The audit was performed in accordance with Government
                                   Auditing Standards as part of our FY 2004 emphasis on the
                                   LMSB Division’s strategic initiatives. The review was
                                   performed at the LMSB Division Headquarters in
                                   Washington, D.C., and in Examination function groups in
                                   the LMSB Division field offices in the Los Angeles,
                                   New York City, and Philadelphia metropolitan areas during
                                   the period May 2003 through March 2004. Detailed
                                   information on our audit objective, scope, and methodology
                                   is presented in Appendix I. Major contributors to the report
                                   are listed in Appendix II.
                                   Our analysis of sample cases with transfer pricing issues
Examiner Requests for Transfer
                                   closed on the International Case Management System
Pricing Documentation Increased
                                   (ICMS)10 between FYs 1997 and 2002 (prior to issuance of
After the Compliance Directive,
                                   the Transfer Pricing Compliance Directive) showed that in
but Opportunities for
                                   only 35 percent (20 of 57) of the cases did the revenue agent
Improvement Still Exist
                                   request transfer pricing documentation from the MNE
                                   taxpayer. After issuance of the Directive, transfer pricing
                                   documentation was requested for Industry Cases (IC)11
                                   about 55 percent of the time (12 of 22 open cases reviewed).


                                   10
                                      The ICMS is a computer system used to track cases referred and
                                   assigned to international examiner groups.
                                   11
                                      An IC is one that is not a Coordinated Industry Case (CIC) in the
                                   LMSB Division. CIC examinations are generally assigned to a team of
                                   examiners due to the size and complexity of the taxpayer’s business,
                                   whereas an IC examination is usually assigned to a single revenue agent.
                                                                                                   Page 3
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                     However, this still fell short of the Directive's requirement
                     to request the documentation in each case.
                     In 8 (36 percent) of the 22 cases, the examiner or team
                     manager indicated that the request was not issued because
                     the transfer pricing issues were de minimis, the related party
                     transactions were not material, or the transfer pricing issues
                     had little potential. Thus, in these cases a decision was
                     made regarding materiality without requesting the transfer
                     pricing documentation, which negates one of the primary
                     objectives contained in the Directive.
                     In 2 (9 percent) of the 22 cases, transfer pricing
                     documentation was not warranted. In one case, the team
                     manager indicated that the request was not made because
                     the case was a limited-scope examination based on
                     “continuing compliance issues” identified from the prior
                     examination. In the other case, the team manager indicated
                     that the request was not made because of the extremely
                     remote possibility of a transfer pricing issue being present
                     on interest transactions on loans between the U.S. branch
                     office of a foreign bank and the bank’s home office.
                     In the 12 cases for which the documentation was requested,
                     MNE taxpayers responded timely with transfer pricing
                     documentation in 4 cases. In another 4 cases, MNE
                     taxpayers provided transfer pricing documentation or
                     studies more than 30 days after the initial requests. In the
                     final 4 cases, the taxpayers did not provide the
                     documentation. In summary, in only two-thirds (8 of 12) of
                     the cases did the MNE taxpayers provide some form of
                     study or documentation describing their transfer pricing
                     methodologies.
                     One cause of the problem with requesting transfer pricing
                     documentation was that the issue was not addressed by
                     LMSB Division Territory Managers12 during operational
                     reviews of their teams. Our review of a judgmental sample
                     of the documentation for 18 operational reviews conducted
                     by 9 Territory Managers after issuance of the Transfer

                     12
                       A Territory Manager is a second-level manager who oversees groups
                     in a geographic area. The LMSB Division has 62 Territory Managers.
                     An operational review is a process used by the Territory Manager to
                     evaluate performance and to identify opportunities for improvement.
                                                                                  Page 4
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                     Pricing Compliance Directive showed that the requirements
                     of the Directive were not addressed in any of the operational
                     reviews.
                     When transfer pricing documentation is available but not
                     requested, the benefits that would be derived from its use
                     are lost. To better understand the benefits of having the
                     documentation early in the decision-making process, we
                     surveyed the 11 International function team managers that
                     controlled the international portion of the open examination
                     cases to determine the effectiveness of the Transfer Pricing
                     Compliance Directive and transfer pricing documentation
                     when it is present. Ten of these International function team
                     managers provided responses to the following issues.
                     Use of documentation allows for more efficient
                     examinations
                     Nine of 10 International function team managers believed
                     documentation allowed international examiners to more
                     quickly identify transfer pricing issues. In addition, the IRS
                     reported in a study13 to the Congress that the transfer pricing
                     documentation significantly reduced the time and effort
                     necessary to obtain information to analyze transfer prices.
                     The IRS report states:
                             In many examinations, documentation saved
                             significant IRS resources. Documentation permitted
                             the IRS to determine at an early stage of the
                             examination process . . . whether to devote
                             personnel and other resources to transfer pricing
                             issues. In several cases, the examiner’s initial
                             review of the documentation enabled a reasoned
                             judgment to be made to devote scarce examination
                             resources to other issues. In contrast, in several
                             other cases, the initial review revealed significant
                             issues that required additional scrutiny. Under
                             prior practice, in contrast, the IRS could not allocate
                             appropriate resources to transfer pricing issues until
                             it conducted preliminary inquiries, which often
                             consumed lengthy periods of time.


                     13
                      Fiscal Years 2000-2001 IRS Study: Effectiveness of Internal Revenue
                     Code Section 6662(e) (dated December 28, 2001), page 42.
                                                                                  Page 5
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                     Use of documentation allows for more effective
                     understanding of the taxpayer’s point-of-view and
                     facilitates more open communication
                     Seven of 10 managers see the documentation as beneficial
                     because it defines the taxpayer’s position and transfer
                     pricing methodology. The IRS report also made this point:
                            . . . By placing the taxpayer’s transfer pricing
                            analysis in a clear framework and stating the
                            taxpayer’s position regarding the arm’s length price
                            for the controlled transactions, it provides a basis
                            for the IRS examination of these issues.
                            Examinations conducted with the benefit of
                            documentation tend to be quicker and more focused
                            than examinations conducted under the ad hoc
                            approach to transfer pricing that many taxpayers
                            used prior to the enactment of section 6662(e).
                     Use of documentation reduces the time and resources
                     needed to resolve disagreed cases
                     Seven of 10 managers believe when transfer pricing issues
                     are proposed to the taxpayer, access to transfer pricing
                     documentation improved the quality of the transfer pricing
                     issues developed. The improved quality in the development
                     of transfer pricing issues should improve the IRS’ ability to
                     prevail on these issues in postexamination administrative
                     appeals and court actions. This should eventually lead to
                     more agreements on these issues at the examination level,
                     thereby reducing the time and resources needed to resolve
                     disagreed issues.

                     Recommendation

                     1. The Commissioner, LMSB Division, should
                        reemphasize the Transfer Pricing Compliance Directive
                        and incorporate it into the Internal Revenue Manual
                        (IRM). Additionally, the Commissioner should
                        encourage Territory Managers to communicate the
                        requirements of the Directive through team meetings,
                        memoranda, and operational reviews. This increased
                        emphasis at the executive and manager level should
                        communicate the importance of requesting the
                        documentation at the onset of an examination.
                                                                           Page 6
               The Controls for Examination Processes for Industry Cases With
                    International Transfer Pricing Issues Can Be Improved

                                       Management’s Response: The Commissioner, LMSB
                                       Division, will issue a memorandum to the field
                                       reemphasizing the Transfer Pricing Compliance
                                       Directive and suggesting that requirements of the
                                       Directive be communicated through team meetings,
                                       memoranda, and operating reviews. The Commissioner
                                       also plans to incorporate the substance of the Transfer
                                       Pricing Compliance Directive into the IRM.
                                       Office of Audit Comment: In the response to our draft
                                       report, the Commissioner, LMSB Division, also
                                       included numerous comments regarding our work that
                                       we believe need to be clarified. First, the Commissioner
                                       expressed concern about references to the estimates on
                                       transfer pricing noncompliance developed by Doctors
                                       Pak and Zdanowicz. Our purpose for using these figures
                                       in the report was to illustrate the range of estimates of
                                       transfer pricing noncompliance in recent studies.
                                       Second, the Commissioner indicated the IRS
                                       subsequently conducted an independent survey of
                                       International Territory Managers to determine the rate of
                                       request for transfer pricing documentation and
                                       determined it to be higher than the 55 percent described
                                       in our report. We are pleased it appears that examiners
                                       are requesting transfer pricing documentation more
                                       consistently, which indicates to us that our review
                                       activities had a positive impact. However, we cannot
                                       comment on the reliability of the LMSB Division survey
                                       results because they were provided subsequent to our
                                       audit work.
                                    Requests for transfer pricing documentation and the
Many Income Tax Returns With
                                    subsequent review of the information provided by the MNE
Potential Transfer Pricing Issues
                                    taxpayers can occur only if the returns are opened for
Never Received Consideration by
                                    examination and the information, once obtained, is referred
International Examiners
                                    to an international examiner or economist with the proper
                                    technical training to evaluate it. However, tax returns with
                                    international features selected for examination are not
                                    always being opened, and the returns with international
                                    features that are opened are not always being referred to an
                                    International function group for evaluation and possible
                                    examination.


                                                                                          Page 7
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                     We estimate that, in FY 2002, 470 (56 percent) of
                     846 returns with potential transfer pricing issues were not
                     referred to an international examiner for evaluation because
                     they were improperly surveyed14 by domestic revenue
                     agents and team managers and were never opened for
                     examination. The estimate was based on a case review of
                     an attribute sample of 106 returns from a population of
                     2,489 Tax Years (TY) 1999 and 2000 returns containing
                     potential transfer pricing issues that were surveyed. The
                     sample had a 95 percent confidence level, ±7.3 percent
                     precision margin, and 18.9 percent expectation of finding
                     returns that were surveyed without proper approval.
                     Likewise, some returns with potential transfer pricing issues
                     that are opened for examination are also not being referred
                     for review by international examiners. A computer analysis
                     showed that 146 (27 percent) of 547 TYs 1999 and
                     2000 returns opened for examination with potential transfer
                     pricing issues as of August 2003 were not referred to
                     international examiners for evaluation as required.
                     The LMSB Division reported similar results concerning all
                     returns surveyed in FY 2003 in an internal study released on
                     March 4, 2004. The study of a statistical sample of
                     380 surveyed returns found that 126 (33 percent) of the
                     returns reviewed contained material issues worthy of
                     examination. We also reported this condition in our report
                     on Foreign Controlled Corporations.15
                     The LMSB Division also reported in February 2004 that
                     mandatory referrals to specialists, including international
                     examiners, continue not to be made, declining another
                     14 percent between FYs 2001 and 2003. In FY 2001, the
                     LMSB Division reported that referrals to specialists were
                     made in only 64 percent of the cases for which guidelines



                     14
                        A survey is defined as a decision not to examine a return that is made
                     without contacting the taxpayer or inspecting any records, after
                     evaluating the examination potential and determining that an
                     examination of the return will not result in a material change in the
                     taxpayer’s tax liability.
                     15
                        Controls Over the Identification and Selection of Foreign Controlled
                     Corporations for Examination Need Improvement (Reference
                     Number 2001-30-119, dated July 2001).
                                                                                       Page 8
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                     required a specialist referral to be made; this declined to
                     50 percent by FY 2003.
                     The IRM provides the procedural guidelines on the criteria
                     for surveying cases with potential transfer pricing issues and
                     for referring cases to international examiners once the cases
                     are opened. The established examination procedures are
                     intended to ensure cases with transfer pricing issues are
                     identified, evaluated, and examined by specialists; however,
                     these procedures are not always effective. Therefore, the
                     control system to ensure compliance needs improvement.
                     The Government Accountability Office (formerly the
                     General Accounting Office) Standards for Internal Control
                     in the Federal Government specify that control activities are
                     policies, procedures, techniques, and mechanisms that
                     enforce management’s directives. Control activities are an
                     integral part of an entity’s planning, implementing,
                     reviewing, and accountability for stewardship of Federal
                     Government resources and achieving effective results.
                     When these control activities are ineffective to enforce
                     management’s directives, significant losses can occur
                     because risks were not minimized.
                     There are at least two causes for not following the referral
                     requirements. First, Territory Managers do not uniformly
                     include an evaluation as to whether proper referrals to
                     specialists were made during their operational reviews. Our
                     review of a judgmental sample of 43 team operational
                     reviews conducted by 12 LMSB Division Territory
                     Managers in Dallas, Houston, Los Angeles, and New York
                     between September 1, 2000, and November 24, 2003,
                     showed that only 11 (26 percent) discussed and evaluated
                     the manager and team on the need for making specialist
                     referrals. The remaining 32 provided no evidence that the
                     referrals to specialists were discussed or evaluated.
                     Second, the current procedures rely simply on the
                     procedures themselves to achieve the control objective.
                     However, there are no controls to prevent noncompliance or
                     to detect when there has been no compliance. Therefore,
                     the control system could be improved to minimize the risk
                     that returns with potential transfer pricing issues miss being
                     referred for evaluation.

                                                                             Page 9
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                     We estimate that, by improving the controls that ensure
                     returns with potential transfer pricing issues are referred to
                     international examiners for consideration, Federal
                     Government revenue could increase by approximately
                     $32.3 million annually in additional income taxes or
                     reduction in tax attributes.16 This projection is contingent on
                     the premise that the LMSB Division has the international
                     examiner resources to examine the additional returns that
                     should be referred. The $32.3 million is composed of
                     estimates of $24.7 million currently lost due to the improper
                     surveying of cases with potential transfer pricing issues, and
                     $7.6 million currently lost due to open cases with potential
                     transfer pricing issues not being referred to international
                     examiners for consideration. Details of our analysis are
                     included in Appendix IV.

                     Recommendations

                     2. In the short term, the Commissioner, LMSB Division,
                        should strengthen controls by encouraging Territory
                        Managers to communicate through team meetings,
                        memoranda, and operational reviews the importance of
                        making appropriate referrals.
                          Management’s Response: The Commissioner, LMSB
                          Division, agreed to issue a memorandum to the field
                          addressing timely specialist referrals.
                     3. In the long term, the Commissioner, LMSB Division,
                        should have the Specialist Referral System (SRS)17
                        modified to automatically generate referrals to
                        international examiners for returns containing the
                        criteria for referral that can currently be identified
                        through the Business Return Transaction File (RTF)




                     16
                        Tax attributes are carryforwards of net operating losses and tax credits
                     that can be used to reduce future taxes.
                     17
                        The SRS is an automated referral process that allows revenue agents
                     to request the assistance of a field specialist.
                                                                                      Page 10
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                          when the returns are opened for examination.18
                          Additional automatic criteria for referral can be added to
                          the SRS as the information becomes available with the
                          electronic filing of corporation income tax returns.
                          Management’s Response: The Commissioner, LMSB
                          Division, agreed to continue the development and
                          testing of modifications to the SRS to achieve automatic
                          referral of returns meeting international mandatory
                          referral requirements and to deploy the system
                          developed, provided it is both efficient and
                          cost-effective. The Commissioner will also continue the
                          development and testing of information systems that
                          will efficiently provide information with respect to
                          returns with international features awaiting referral.
                     4. In the long term, the Commissioner, LMSB Division,
                        should implement an automated control that, when a
                        return is selected during classification for international
                        examiners, prevents the return from being improperly
                        surveyed without the prior approval of the International
                        District Program Manager and detects this occurrence so
                        the team’s Territory Manager can take appropriate
                        corrective action.
                          Management’s Response: The Commissioner, LMSB
                          Division, did not concur with this recommendation,
                          stating that the suggested approach has been attempted
                          in the past and has had mixed results. A primary
                          weakness is that, if a return is not referred and sufficient
                          time is allowed to elapse, the International function will
                          not have the time necessary to identify and develop
                          substantive issues, such as issues under I.R.C. § 482.
                          The Commissioner believes the preferred approach is to
                          ensure returns are referred timely and will continue

                     18
                       The Business RTF currently has in place indicators for the following
                     forms specified in the Referral Criteria and Procedures of the
                     International Procedures Handbook, IRM 4.60.5: Foreign Tax Credits –
                     Corporations (Form 1118), Information Return of U.S. Persons with
                     Respect to Certain Foreign Corporations (Form 5471), Information
                     Return of a 25% Foreign-Owned U.S. Corporation or a Foreign
                     Corporation Engaged in a U.S. Trade or Business (Form 5472), Return
                     by a U.S. Transferor of Property to a Foreign Corporation, (Form 926),
                     and International Boycott Report (Form 5713).
                                                                                  Page 11
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                        efforts to develop and test either an automated referral
                        system or a system which will efficiently provide
                        information regarding returns awaiting referral.
                        Office of Audit Comment: We agree with the
                        Commissioner that the preferred approach is to ensure
                        returns with international features are referred timely.
                        As the report indicates, the intent of the recommendation
                        is to implement an automated control that would ensure
                        all required returns are referred to an international
                        examiner within a short period of time.
                        The Commissioner, LMSB Division, also included
                        numerous comments regarding our work that we believe
                        need to be clarified. The Commissioner expressed no
                        specific disagreement with the outcome measure
                        described in our report, but did express concern with the
                        assumptions and the fact that our projection is
                        contingent on the premise that the LMSB Division has
                        the international examiner resources to examine the
                        additional returns that should be referred. Specifically,
                        the Commissioner noted that transfer pricing
                        examinations frequently lead to the dispute resolution
                        processes where significant issues are resolved at
                        amounts substantially less than those originally
                        proposed. As we indicate in the report, we took these
                        factors into consideration. Our assumption that
                        additional international examiner resources may be
                        required was based on the unstated assumption that
                        current international examiner resources are already
                        fully employed and therefore unavailable.




                                                                          Page 12
                 The Controls for Examination Processes for Industry Cases With
                      International Transfer Pricing Issues Can Be Improved

                                                                                                       Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine the impact of the contemporaneous transfer
pricing documentation regulations on Industry Case (IC)1 transfer pricing examinations. To
achieve this objective, we extensively relied on internal management reports and
computer-processed data contained in the Audit Information Management System (AIMS),2
Examination Return Control System (ERCS),3 Foreign Information System (FIS),4 International
Case Management System (ICMS),5 and Specialist Referral System (SRS).6 We did not establish
the reliability of these data because extensive data validation was outside the scope of this audit.
The specific tests included the following:
I.       Determined the extent of use of the contemporaneous transfer pricing documentation
         described in Internal Revenue Code (I.R.C.) Section (§) 6662(e)7 and Treas. Reg.
         § 1.6662-6(d)(2)(iii).8
         A. Through a closed case review, determined the number of cases requesting transfer
            pricing documentation prior to issuance of the January 22, 2003, Transfer Pricing
            Compliance Directive using a judgmental sample. We used a judgmental sample
            because location and travel factors associated with the selection of a random sample
            would have been cost-prohibitive. We identified a population of 2,782 post-Tax
            Year (TY) 1995 non-Coordinated Industry Case (non-CIC)9 tax returns with transfer
            pricing issues that were closed on the AIMS and ICMS between Fiscal Years
            (FY) 1997 and 2002 and reviewed 57 complete cases.

1
  An IC is one that is not a Coordinated Industry Case (CIC) in the Large and Mid-Size Business (LMSB) Division.
CIC examinations are generally assigned to a team of examiners due to the size and complexity of the taxpayer’s
business, whereas an IC examination is usually assigned to a single revenue agent.
2
  The AIMS is a computer system used to control returns, input assessments/adjustments to the Master File, and
provide management reports. The Master File is the Internal Revenue Service database that stores various types of
taxpayer account information. This database includes individual, business, and employee plans and exempt
organizations data.
3
  The ERCS is an automated inventory system used for controlling tax returns and technical time charges from the
time returns arrive in the operating divisions until they are closed on the AIMS.
4
  The FIS is a computer system containing information transcribed from the Information Return of U.S. Persons
With Respect to Certain Foreign Corporations (Form 5471) and Information Return of a 25% Foreign-Owned U.S.
Corporation or a Foreign Corporation Engaged in a U.S. Trade or Business (Form 5472).
5
  The ICMS is a computer system used to track cases referred and assigned to international examiner groups.
6
  The SRS is an automated referral process that allows revenue agents to request the assistance of a field specialist.
7
  I.R.C. § 6662 (2004).
8
  Treas. Reg. § 1.6662-6 (2003).
9
  The non-CIC Program is a field examination program formerly known as the General Examination Program. It is
operated by both the Small Business/Self-Employed and LMSB Divisions and involves examinations of income tax
returns using a single revenue agent.
                                                                                                              Page 13
      The Controls for Examination Processes for Industry Cases With
           International Transfer Pricing Issues Can Be Improved

B. Through an open case review, determined the number of cases requesting transfer
   pricing documentation after issuance of the Transfer Pricing Compliance Directive.
   We identified a population of 109 cases (114 returns) with potential transfer pricing
   issues through matching Transactions Between Controlled Foreign Corporation and
   Shareholders or Other Related Persons (Schedule M) of the Information Return of
   U.S. Persons With Respect to Certain Foreign Corporations (Form 5471) and
   Information Return of a 25% Foreign-Owned U.S. Corporation or a Foreign
   Corporation Engaged in a U.S. Trade or Business (Form 5472) information for
   TYs 1999 and 2000 from the FIS to referrals open on the ICMS as of
   October 15, 2003, that were started between October 1, 2002, and July 31, 2003. We
   selected a judgmental sample of 50 cases (54 returns) located in the metropolitan
   areas with the greatest concentration of cases open during this period – Los Angeles,
   New York, and Philadelphia. We selected a judgmental sample because a statistical
   sample was impractical due to cost, time, staffing, and travel considerations
   associated with such a sample. Forty-three open cases were available for review in
   November and December 2003. We determined that, in 22 of the cases, taxpayer
   contact took place subsequent to issuance of the Transfer Pricing Compliance
   Directive, based on the issuance date of the first information document request.
C. Through computer analysis, determined the number of open cases with potential
   transfer pricing issues that were not being referred. We identified a population of
   503 open cases (547 open returns) with potential transfer pricing issues by matching
   Form 5471 Schedule M and Form 5472 information for TYs 1999 and 2000 from the
   FIS to the open return examination information on the ERCS as of August 2003. We
   ran the ERCS and FIS match of 503 open cases against the ICMS and SRS databases
   and identified 366 cases (73 percent of open cases involving 401 open returns) that
   were referred and 137 cases (27 percent of open cases involving 146 open returns)
   that were not referred for consideration by international examiners.
D. Determined the number of non-CIC surveyed returns with potential transfer pricing
   issues that were improperly closed without approval of the International District
   Program Manager. We identified a population (N) of 3,099 surveyed returns with
   potential transfer pricing issues through matching Form 5471 Schedule M and
   Form 5472 information for TYs 1999 and 2000 from the FIS to return information on
   the nonexamined AIMS database for FY 2002 with survey before assignment
   (Disposal Code 31) and survey after assignment (Disposal Code 32). We selected
   and requested from files a random attribute sample (n) of 132 returns. The sample,
   when selected, had a 95 percent confidence level (Z) with ±5 percent tolerable
   sampling error (E). The expected percentage (p) of returns with the attribute of being
   selected for examination by the International function and being improperly surveyed
   was 10 percent, based on a pilot sample conducted in our audit of Foreign Controlled



                                                                                  Page 14
                The Controls for Examination Processes for Industry Cases With
                     International Transfer Pricing Issues Can Be Improved

             Corporations.10 Twenty-six (20 percent) of the 132 sample returns were unavailable
             for review, reducing the effective sample size (n') to 106 returns. Because no data
             were available on these 26 returns, we assumed these returns may behave differently
             from the returns reviewed, preventing projection of results to 610 (20 percent) of the
             3,099 returns in the population. The effective sample of 106 returns allows projection
             to 2,489 (80 percent) of the 3,099 returns.
             Because of changes in the effective sample size, from 132 to 106 returns, and the
             actual value of p exceeding the expected value of p (18.9 percent compared to an
             expected value of 10 percent), the tolerable sampling error was adjusted to
             ±7.3 percent. Projecting these results into the population of surveyed returns with a
             95 percent confidence level, we estimate that 846 returns [(36/106) × 2,489] were
             originally selected for examination (with a range between 572 and 1,119 returns) and
             that 470 returns [(20/106) × 2,489] were improperly surveyed (with a range between
             244 and 695 returns).
II.      Reviewed the criteria associated with transfer pricing documentation and the
         identification, selection, and referral of returns with potential transfer pricing issues for
         evaluation and potential.
         A. Reviewed I.R.C. § 48211 and I.R.C. § 6662(e) along with the associated regulations,
            internal operating procedures in the Internal Revenue Manual (IRM), and the Transfer
            Pricing Compliance Directive of January 22, 2003.
         B. Reviewed the IRM for the internal procedures concerning the identification, selection,
            and referral of returns with international features.
III.     Assessed the causes for not requesting transfer pricing documentation on IC cases and for
         not referring IC cases with potential transfer pricing issues to the International function
         for evaluation through surveys, reviews of operational reviews and official memoranda,
         and responses to case reviews. The review of the operational reviews was from a
         judgmental sample consisting of 12 Territory Managers selected from a population of
         62 LMSB Territory Managers. These 12 Territory Managers conducted 43 operational
         reviews between September 1, 2000, and November 24, 2003. The population of
         operational reviews conducted during this period is not readily available. A judgmental
         sample was used because the population of operational reviews was not readily available
         and location and travel factors associated with the selection of a random sample of
         Territory Managers would have been cost-prohibitive. Eighteen of the 43 operational
         reviews were conducted by 9 Territory Managers after issuance of the Transfer Pricing
         Compliance Directive.


10
   Based on the results of a pilot sample in which 6 (10 percent) of 60 returns were determined to be improperly
surveyed in our report Controls Over the Identification and Selection of Foreign Controlled Corporations for
Examination Need Improvement (Reference Number 2001-30-119, dated July 2001).
11
   I.R.C. § 482 (2004).
                                                                                                            Page 15
            The Controls for Examination Processes for Industry Cases With
                 International Transfer Pricing Issues Can Be Improved

IV.   Determined the effects of transfer pricing documentation not being requested and returns
      with potential transfer pricing issues not being referred for evaluation and potential
      examination.
      A. Determined the benefits lost when the Internal Revenue Service does not request
         transfer pricing documentation from the taxpayer and the taxpayer has prepared the
         documentation. We submitted questionnaires to the 11 International function team
         managers that controlled the international portion of the open examination cases and
         obtained and analyzed questionnaires from 10 International function team managers
         whose cases were included in the open case review to determine anecdotally the
         benefits received when transfer pricing documentation is provided by the taxpayer.
      B. Estimated the approximate revenue lost as a result of returns with potential transfer
         pricing issues being improperly surveyed.
      C. Estimated the approximate revenue lost as a result of returns with potential transfer
         pricing issues that were opened for examination but not referred to international
         examiners.




                                                                                         Page 16
             The Controls for Examination Processes for Industry Cases With
                  International Transfer Pricing Issues Can Be Improved

                                                                                 Appendix II


                           Major Contributors to This Report

Phil Shropshire, Acting Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Frank Dunleavy, Audit Manager
Earl Charles Burney, Lead Auditor
Carole Connolly, Senior Auditor
Debra Mason, Auditor
Ali Vaezazizi, Auditor




                                                                                       Page 17
            The Controls for Examination Processes for Industry Cases With
                 International Transfer Pricing Issues Can Be Improved

                                                                          Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Large and Mid-Size Business Division SE:LM
Director, Field Specialists SE:LM:FS
Director, International SE:LM:I
Director, Strategy, Research, and Program Planning SE:LM:SR
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Commissioner, Large and Mid-Size Business Division SE:LM




                                                                               Page 18
                The Controls for Examination Processes for Industry Cases With
                     International Transfer Pricing Issues Can Be Improved

                                                                                                 Appendix IV


                                           Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to the Congress.
Type and Value of Outcome Measure:
    •   Increased Revenue – Potential; $24.7 million in additional recommended taxes or
        reduced tax attributes1 annually; $123.5 million over 5 years (see page 7).
Methodology Used to Measure the Reported Benefit:
To estimate the increased revenue that could result from examining returns with potential
transfer pricing issues that are currently being improperly surveyed, we began by identifying the
population of 3,099 returns with potential transfer pricing issues surveyed in Fiscal
Year (FY) 2002.2 We selected a random attribute statistical sample of 132 returns from the
population with a 95 percent confidence level, ±5 percent tolerable sampling error level, and
10 percent3 attribute of finding returns that were surveyed without proper approval. Because
26 of the 132 returns were unavailable, the effective sample size was reduced to 106 returns,
allowing projection to 2,489 returns [3,099 × (106/132)] in the population. We identified 20 of
106 sample returns (18.9 percent) with potential transfer pricing issues that were surveyed
without evidence of approval by the International District Program Manager. The tolerable error
level of the sample was adjusted from ±5 percent to ±7.3 percent because of changes in the
effective sample size and because the actual percentage of returns surveyed without proper
approval exceeded the expected percentage. Projecting the sample into the population of
2,489 returns, we estimate that 470 returns with potential transfer pricing issues
[2,489 × (20/106)] were improperly surveyed.

1
  Tax attributes are carryforwards of net operating losses and tax credits that can be used to reduce future taxes.
2
  The population of 3,099 survey returns with potential transfer pricing issues was identified through matching the
closed FY 2002 nonexamined Audit Information Management System (AIMS) database for returns surveyed before
assignment (Disposal Code 31) and returns surveyed after assignment (Disposal Code 32) to Tax Years (TY) 1999
and 2000 Transactions Between Controlled Foreign Corporation and Shareholders or Other Related Parties
(Schedule M) of the Information Return of U.S. Persons With Respect to Certain Foreign Corporations (Form 5471),
Information Return of a 25% Foreign-Owned U.S. Corporation or a Foreign Corporation Engaged in a U.S. Trade or
Business (Form 5472), or both from the Foreign Information System (FIS). The AIMS is a computer system used to
control returns, input assessments/adjustments to the Master File, and provide management reports. The Master File
is the Internal Revenue Service database that stores various types of taxpayer account information. This database
includes individual, business, and employee plans and exempt organizations data. The FIS is a computer system
containing information transcribed from Forms 5471 and 5472.
3
  Based on the results of a pilot sample in which 6 (10 percent) of 60 returns were determined to be improperly
surveyed in our report Controls Over the Identification and Selection of Foreign Controlled Corporations for
Examination Need Improvement (Reference Number 2001-30-119, dated July 2001).
                                                                                                          Page 19
                The Controls for Examination Processes for Industry Cases With
                     International Transfer Pricing Issues Can Be Improved

To determine the amount of additional recommended taxes or reduced tax attributes that could be
generated from examination of the 470 improperly surveyed returns with potential transfer
pricing issues in the future, we assumed that:
    •   Fifty international examiners would be available to evaluate and possibly examine these
        returns.
    •   The returns, when referred to International function groups, are rejected for examination
        at the FY 2002 historical rate of 32.56 percent because of workload considerations or
        indications that no significant tax adjustments exist.
    •   The remaining returns, when examined, would have the same profile of no changes and
        changes as returns examined and reported on the International Case Management System
        (ICMS)4 over the last 5 years with transfer pricing issues under Internal Revenue Code
        (I.R.C.) Section (§) 4825 (see Table 1).
    •   The returns resulting in changes when examined would yield the same average dollars
        per return as examined returns reported on the ICMS over the last 5 years with transfer
        pricing adjustments under I.R.C. § 482 (see Table 1).
    •   The recommended assessments would be sustained at the FY 2002 historical rate of
        17.5 percent in postexamination appeals.
     Table 1: Analysis of Non-Coordinated Industry Case (CIC)6 Transfer Pricing Return Examinations
                                            FYs 1999 - 2003
                                                               Return           Return          Total Transfer
                                                Total       Examinations     Examinations          Pricing
                                              Returns        Resulting in     Resulting in       Adjustments
Fiscal Year                                  Examined        No Change        Adjustment
1999                                               1,012               499              513        $ 562,148,003
2000                                                  796              389              407           405,575,391
2001                                                  639              290              349         1,203,537,437
2002                                                  524              228              296           969,291,816
2003                                                  479              233              246         1,264,033,712
   Summation                                       3,450             1,639            1,811       $4,404,586,359
Divisor                                            3,450             3,450            3,450                 1,811
   5-year average percentage                       100%            47.51%           52.49%
   5-year average of transfer pricing adjustment per return                                           $2,432,129

Source: Treasury Inspector General for Tax Administration analysis of the dispositions and adjustments on
 non-CIC transfer pricing return examinations on the ICMS for FYs 1999 - 2003.


4
  The ICMS is a computer system used to track cases referred and assigned to international examiner groups.
5
  I.R.C. § 482 (2004).
6
  The non-CIC Program is a field examination program formerly known as the General Examination Program. It is
operated by both the Small Business/Self-Employed and Large and Mid-Size Business Divisions and involves
examinations of income tax returns using a single revenue agent.

                                                                                                        Page 20
                 The Controls for Examination Processes for Industry Cases With
                      International Transfer Pricing Issues Can Be Improved

Based on these assumptions, we estimate the referral of 470 returns in the future would result
in 153 (470 × 32.56 percent) returns being rejected because of indications of no significant
adjustment or workload considerations. The remaining 317 returns would yield
151 (317 × 47.51 percent) no change return examinations and 166 (317 × 52.49 percent) return
examinations with transfer pricing adjustments to taxable income averaging $2.43 million per
return, or $403 million in total (166 × $2.43 million). This $403 million in adjustments could
increase recommended examination tax assessments or reduce tax attributes attributable to net
operating loss carryforwards by about $141 million ($403 million × 35 percent marginal
corporate tax rate7). The $141 million in recommended tax assessments or reductions in tax
attributes would be further subject to postexamination appeals, which would further reduce the
amount of revenue. Therefore, taking into account the sustention rate on transfer pricing issues
in the Office of Appeals for FY 2002, the potential increased revenue would be about
$24.7 million ($141 million × 17.5 percent) per year.
Type and Value of Outcome Measure:
    •    Increased Revenue – Potential; $7.6 million in additional recommended taxes or reduced
         tax attributes annually; $38 million over 5 years (see page 7).
Methodology Used to Measure the Reported Benefit:
To estimate the increased revenue that could result from examining returns with potential
transfer pricing issues that are currently open but not being referred, we began by identifying the
population of 547 open return examinations with potential transfer pricing issues in FY 2003.8
We matched this population against the ICMS and the Specialist Referral System (SRS),9
identifying 401 open returns that were referred to international examiners for evaluation and
possible examination while the remaining 146 open returns were not.
To determine the future amount of additional recommended taxes or reduced tax attributes that
could be generated from examination of the 146 open returns with potential transfer pricing
issues that were not referred, we assumed that:
    •    Sixteen international examiners would be available to evaluate and possibly examine
         these returns.
    •    The returns, when referred to International function groups, are rejected for examination
         at the FY 2002 historical rate of 32.56 percent because of workload considerations or
         indications that no significant tax adjustments exist.


7
  I.R.C. § 11 (2004).
8
  The population of 547 open returns with potential transfer pricing issues was identified by matching the
Examination Return Control System (ERCS) database as of August 2003 for all return examinations started during
FY 2003 to the Form 5471 Schedule M, Form 5472, or both for TYs 1999 and 2000 from the FIS. The ERCS is an
automated inventory system used for controlling tax returns and technical time charges from the time returns arrive
in the operating divisions until they are closed on the AIMS.
9
  The SRS is an automated referral process that allows revenue agents to request the assistance of a field specialist.
                                                                                                              Page 21
                   The Controls for Examination Processes for Industry Cases With
                        International Transfer Pricing Issues Can Be Improved

       •   The remaining returns, when examined, would have the same profile of no changes and
           changes as returns examined and reported on the ICMS over the last 5 years with transfer
           pricing issues under I.R.C. § 482 (see Table 1).
       •   The returns resulting in changes when examined would yield the same average dollars
           per return as examined returns reported on the ICMS over the last 5 years with transfer
           pricing adjustments under I.R.C. § 482 (see Table 1).
       •   The recommended assessments would be sustained at the FY 2002 historical rate of
           17.5 percent in postexamination appeals.
Based on these assumptions, we estimate the referral of 146 returns in the future would result
in 48 (146 × 32.56 percent) returns being rejected because of indications of no significant
adjustment or workload considerations. The remaining 98 returns would yield
47 (98 × 47.51 percent) no change return examinations and 51 (98 × 52.49 percent) return
examinations with transfer pricing adjustments to taxable income averaging $2.43 million per
return, or $124 million in total (51 × $2.43 million). This $124 million in adjustments could
increase recommended examination tax assessments or reduce tax attributes attributable to net
operating loss carryforwards by about $43.4 million ($124 million × 35 percent marginal
corporate tax rate10). The $43.4 million in recommended tax assessments or reductions in tax
attributes would be further subject to postexamination appeals that would further reduce the
amount of revenue. Therefore, taking into account the sustention rate on transfer pricing issues
in the Office of Appeals for FY 2002, the potential increased revenue would be about
$7.6 million ($43.4 million × 17.5 percent).




10
     I.R.C. § 11 (2004).
                                                                                             Page 22
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved

                                                             Appendix V


       Management’s Response to the Draft Report




                                                                 Page 23
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 24
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 25
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 26
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 27
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 28
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 29
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 30
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 31
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 32
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 33
The Controls for Examination Processes for Industry Cases With
     International Transfer Pricing Issues Can Be Improved




                                                                 Page 34
